App. 1
18CA1507 McDonald v Citibank 08-15-2019
COLORADO COURT OF APPEALS DATE FILED:
August 15, 2019
Court of Appeals No. 18CA1507
Arapahoe County District Court No. 15CV515
Honorable Elizabeth A. Weishaupl, Judge
R. Kirk McDonald,
Plaintiff-Appellant,
v.
Citibank N.A., Kelly Kilgore, and Mark C. Willis,
Defendants-Appellees.
JUDGMENT AFFIRMED AND CASE
REMANDED WITH DIRECTIONS
Division VI
Opinion by JUDGE WELLING
Fox and Freyre, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced August 15, 2019
R. Kirk McDonald, Pro Se
Bryan Cave Leighton Paisner LLP, Cynthia LoweryGraber, Denver, Colorado, for Defendant-Appellee,
Citibank, N.A.
Peters Law Firm LLC, Stephen C. Peters, Denver, Col­
orado, for Defendants-Appellees Kelly Kilgore and Mark
C. Willis
'll 1 Appellant R. Kirk McDonald submits this appeal following the district court’s dismissal of his

App. 2
claims under C.R.C.P. 12(b)(5) and denial of his mo­
tion for rehearing under C.R.C.P. 59.
H 2 The dispute between the parties springs from the
foreclosure of McDonald’s home and his subsequent
eviction. As a result, over the last seven years,
McDonald has filed numerous actions in state court,
seeking to undo the foreclosure, halt the eviction,
and recover damages. Recently, McDonald twice ap­
pealed a district court ruling related to his fore­
closure and eviction and twice failed to comply with
the rules of appellate procedure. In both appeals, a
division of this court dismissed the appeal without
reaching the merits of his arguments, due to his nu­
merous violations of the appellate rules.
f 3 Now on appeal for the third time, McDonald
again fails to comply with the rules of appellate pro­
cedure. For that reason, we affirm the district court’s
orders and remand to the district court to award rea­
sonable attorney fees and costs to CitiBank N.A., as
trustee for Chase Funding Mortgage Loan AssetBacked Certificates, Series 2002-4 (CitiBank).
I.

Background

A. Relevant Prior Proceedings
H 4 CitiBank held a mortgage note on McDonald’s
residential property. In 2012, McDonald failed to
make his mortgage payments. As a result, CitiBank
foreclosed on the property. But McDonald did not

App. 3
immediately vacate the property following the fore­
closure.
1 5 After McDonald refused to leave, CitiBank filed a
forcible entry detainer action under section 13-40115, C.R.S. 2018, to evict McDonald (Eviction Ac­
tion). McDonald responded to the eviction by filing
484 counterclaims, seeking to set aside the fore­
closure, halt the eviction, and recover damages. The
district court dismissed McDonald’s counterclaims
in the Eviction Action under C.R.C.P. 12(b)(5) and
granted CitiBank possession pursuant to section 1340-115.
6 In 2014, McDonald filed two separate appeals in
response to the district court’s orders in the Eviction
Action. These two appeals were later consolidated.
CitiBank v. McDonald, (Colo. App. Nos. 14CA0759 &
14CA1359, Oct. 15,2015) (not published pursuant to
C.A.R. 35(f)) (CitiBank I). A division of this court af­
firmed the district court’s orders based on McDon­
ald’s failure to comply with C.A.R. 28 and granted
CitiBank its attorney fees.
1 7 After CitiBank I was announced, McDonald filed
a motion in the Eviction Action pursuant to C.R.C.R
60(b). The district court denied the motion. Following
the denial of the motion, McDonald appealed. Citi­
Bank v. McDonald, (Colo. App. No. 16CA0652, Apr.
27, 2017) (not published pursuant to C.A.R. 35(e))
0CitiBank II). A division of this court again declined
to reach the merits of McDonald’s appeal based on

App. 4
his failure to comply with C.A.R. 28, this time dis­
missing the appeal. Id.
B. Proceedings Underlying
this Appeal in the District Court
% 8 In 2016, McDonald, filed the underlying com­
plaint against CitiBank and two of its attorneys,
Mark Willis and Kelly Kilgore. Again, McDonald
sought relief from the foreclosure and eviction from
his home, as well as damages. Defendants filed a mo­
tion to dismiss, contending that McDonald’s claims
should be dismissed based on (1) claim preclusion;
(2) issue preclusion; and (3) failure to state a claim.
f 9 The district court granted the defendants’ motion
to dismiss with prejudice. The district court dis­
missed McDonald’s claims on the third ground, con­
cluding that McDonald “failed to plead sufficient
facts to support his claims by alleging generalities
and citing to case law without providing factual sup­
port for his, allegations.”
% 10 In response to the dismissal, McDonald filed a
motion for rehearing under C.R.C.P. 59. The district
court denied the motion for rehearing, stating that
McDonald failed to specifically allege how the court
had erred in dismissing his first amended complaint.

App. 5
C.

Proceedings in this Court

SI 11 McDonald filed this appeal following the district
court’s Rule 12(b)(5) dismissal of his complaint and
the denial of his Rule 59 motion for rehearing.
f 12 In his opening brief, McDonald asserts a litany
of allegations against CitiBank and the individual
defendants. McDonald’s narrative spans more than
twenty pages without a single citation to the record.
While McDonald asserts numerous ways in which he
believes he was wronged by defendants (and others),
he fails to tie any of the alleged wrongdoing to any
error committed by the district court. As we explain
below, because McDonald has failed to comply with
C.A.R. 28, we do not address his contentions on ap­
peal.
II. Analysis
SI 13 As a threshold matter, we must consider whether
to reach the merits of this appeal where an appellant
fails to comply with the Colorado Rules of Appellate
Procedure. Due to McDonald’s pervasive noncompli­
ance with C.A.R. 28, we decline to review his conten­
tions.
<R 14 The rules of appellate procedure “are not mere
technicalities,” but rather facilitate appellate review.
O’Quinn v. Baca, 250 P.3d 629,631 (Colo. App. 2010).
Where a party, even a pro se party, fails to comply
with the appellate rules, we may dismiss the ap­
peal or decline to consider the merits of the party’s

App. 6
contentions. C.A.R. 38(a); Martin v. Essrig, 277 P.3d
857, 861 (Colo. App. 2011); Madison Capital Co. v.
Star Acquisition VIII, 214 P.3d 557, 561 (Colo. App.
2009) (declining to consider arguments not sup­
ported by the record or by legal argument, as re­
quired by C.A.R. 28); see also Finegold v. Clarke, 713
P.2d 401,403 (Colo. App. 1985) (“[A] pro se litigant is
bound by the same procedural rules as those who are
licensed to practice law and must be prepared to ac­
cept the consequences of his mistakes and errors.”).
f 15 McDonald doesn’t comply with the appellate
rules in four major ways.
'll 16 First, C.A.R. 28(a)(5) requires that an appel­
lant’s Opening brief must include “[a] concise state­
ment identifying . . . the ruling, judgment, or order
presented for review, with appropriate references to
the record.” McDonald doesn’t identify the underly­
ing court order that he is appealing. It is the appel­
lant’s task to inform us “both as to the specific errors
relied on and the grounds and supporting facts and
authorities.” Castillo v. Koppes-Conway, 148 P.3d 289,
291 (Colo. App. 2006) (quoting Mauldin v. Lowery,
127 Colo. 234, 236, 255 P.2d 976, 977 (1953)) (the
courts will not play “archaeologist with the record”
and excavate it to unearth facts and argument sup­
port on appeal (quoting DeSilva v. DiLeonardi, 181
F.3d 865, 867 (7th Cir. 1999))). McDonald doesn’t do
this.
'll 17 Second, C.A.R. 28(a)(7)(A) requires that an appel­
lant’s opening brief include the “applicable standard

App. 7
of review with citation to authority.” McDonald doesn’t
state the applicable standard of review for any of his
contentions.
'll 18 Third, C.A.R. 28(a)(7)(A) also requires an appel­
lant’s opening brief to state whether the contended
issue was preserved and “the precise location in the
record where the issue was raised and where the
court ruled.” McDonald doesn’t cite even a single
time to the precise location in the record where his
issues were raised and where the district court ruled.
Vallagio at Inverness Residential Condo. Ass’n, Inc. v.
Metro. Homes, Inc., 2017 CO 69, f 40 (declining to
consider claims based on generalizations).
*H 19 Fourth, C.A.R. 28(a)(7)(B) requires that an ap­
pellant’s opening brief include “appellant’s conten­
tions and reasoning, with citations to the authorities
and parts of the record on which the appellant re­
lies.” McDonald generally alleges violations of due
process, fraud, theft, forgery, extortion, civil proce­
dure, and jurisdictional defects but he doesn’t sup­
port any of these numerous claims with cogent
arguments or citations to the record.
'll 20 The fact that McDonald is pro se does not excuse
him from compliance with C.A.R. 28. Negron v. Golder,
111 P.3d 538, 541 (Colo. App. 2004) (asserting that
“pro se litigants are bound by the same rules” as
attorneys licensed to practice law in Colorado). As
demonstrated by the rejection of his previous ap­
peals, McDonald was well aware of the consequences
of noncompliance with C.A.R. 28. See CitiBank II

App. 8
(declining to consider McDonald’s contentions for
failure to comply with C.A.R. 28); Citibank I (same).
A pro se litigant “must be prepared to accept the
consequences” if he chooses to represent himself.
Dyrkopp v. Indus. Claim Appeals Office, 30 P.3d 821,
823 (Colo. App. 2001).
% 21 In sum, because McDonald fails to identify the
specific ruling he is appealing, support his appeal
with applicable citations to the record, or develop
an argument that the district court committed error,
we will not review his contentions. Barnett v. Elite
Props, ofAm., Inc., 252 P.3d 14, 19 (Colo. App. 2010)
(“We will not consider a bald legal proposition pre­
sented without argument or development”). Accord­
ingly, we affirm the district court’s orders dismissing
McDonald’s first amended complaint and denying
his motion for rehearing.
III. Attorney Fees
A.

McDonald’s Request

f 22 McDonald’s opening brief makes a general re­
quest for fees and costs. However, C.A.R. 39.1 re­
quires that the party claiming fees “include a specific
request, and explain the legal and factual basis, for
an award of attorney fees” in the party’s principal
brief. McDonald has cited to no law supporting his
request for appellate fees and costs, so we deny his
request.

App. 9
B. Appellees’ Request
f 23 Appellees request attorney fees pursuant to
C.A.R. 39.1. In support of their request, appellees as­
sert three grounds (1) the deed of trust between
McDonald and CitiBank requires the award of attor­
ney fees incurred, in, protecting CitiBank’s property
rights; (2) section 13-40-123, C.R.S. 2018, allows a
party to recover fees as damages if the party prevails
in a forcible entry detainer action; and (3) section 1317-102, C.R.S. 2018, allows the court to assess at­
torney fees if it finds that a party’s appeal lacked
significant justification.
f 24 We agree with appellees on the second ground.
Specifically, we conclude that, given the relief sought
by McDonald, this action is integrally related to the
forcible entry and detainer, and, therefore, appellees
are entitled to attorney fees as damages pursuant to
section 13-40-123. See Integra Fin., Inc. u. Grynberg
Petroleum Co., 74 P.3d 347 (Colo. App. 2002). Because
we award on this ground, we need not address the
other two grounds asserted by appellees.
% 25 Accordingly, we remand to the district court to
award appellees their reasonable appellate attorney
fees and costs. Keith v. Kinney, 140 R3d 141, 159
(Colo. App. 2005).

App. 10
IV.

Conclusion

f 26 The judgment is affirmed and the case is re­
manded to the district court to award the appellees
their reasonable appellate attorney fees and costs.
JUDGE FOX and JUDGE FREYRE concur.

App. 11
DISTRICT COURT,
DATE FILED: June 19,2018
ARAPAHOE COUNTY,
COLORADO
7325 South Potomac Street
Centennial, Colorado 80112
Plaintiff:
Reed Kirk McDonald
v.
Defendants:
Citibank, N.A.
Mark C. Willis
Kelly Kilgore

A COURT USE ONLY A
Case Number: 15CV515
Division:
402

ORDER DENYING PLAINTIFF’S
RULE 59 MOTION FOR REHEARING
THIS MATTER comes before the Court on Plain­
tiff’s Motion for Rule 59 Rehearing. The Court, having
reviewed the Motion, the Response thereto, the Reply
and the Court file and applicable law, hereby DENIES
the Motion.
This case arises from a Complaint filed by the
Plaintiff on December 1, 2015 alleging various claims
against the Defendants related to the foreclosure
Plaintiff’s property and his subsequent eviction.
The foreclosure was based on Plaintiff’s failure to
make monthly payments under the mortgage on the
property. Following the foreclosure of the Plaintiff’s

App. 12
property, Citibank N.A. initiated a forcible entry and
detainer action on March 24, 2014. That matter was
filed in the Arapahoe County Courts under the desig­
nation of Arapahoe County Court Case No. 2014C35153.
Upon the filing of counterclaims in that matter by
Plaintiff, the case was transferred to the Arapahoe
County District Court into Case No. 2014CV200074.
In the 2014CV200074 action, Plaintiff brought
484 counterclaims against Citibank and other parties
seeking, in essence, relief to set aside the foreclosure
and stop the eviction. These counterclaims were simi­
lar, if not identical, to the claims brought by Plaintiff
in the instant action. The Arapahoe County District
Court dismissed the Plaintiffs counterclaims and granted
Citibank’s request for possession of the Property. This
did not deter Plaintiff. He has filed a multitude of mat­
ters in either the Colorado Court of Appeals or the Col­
orado Supreme Court related to Case No. 2014CV200074.
They are: 2014CA759 the Court of Appeals affirmed
the order for possession and granted Citibank its at­
torneys’ fees. The Court of Appeals denied the petition
for rehearing and the mandate issued on December 23,
2015; 2014SC763 - the Colorado Supreme Court denied
the Plaintiff’s C.A.R. 50 Petition for Writ of Certiorari
on February 9, 2015; 2014CA1359 - the Colorado Court
of Appeals consolidated the appeal into 2014CA000759
on October 30,2014 and closed the matter; 2015SA305
- the Colorado Supreme Court denied Plaintiff’s exparte motion for temporary restraining order on No­
vember 19, 2015; 2015SA307 - the Colorado Supreme
Court denied Plaintiff’s C.A.R. 21 Motion under 42

App. 13
U.S.C. 1983 and Ex-Parte Motion for Emergency TRO
on December 1, 2015; 2015SA313 - the Colorado Su­
preme Court denied Plaintiff’s C.A.R. 21 Motion under
42 U.S.C. 1983 for Court’s Violation of the U.S. Suprem­
acy Clause with Ex-Parte Motion for Emergency TRO
on December 3, 2015; 2016SA130 - the Colorado Su­
preme Court denied Plaintiff’s Notice of Appeal and
Petition for By-Pass Review on May 12, 2016. The
Court notes that all of the Plaintiff’s appeals have
been denied and dismissed in Colorado state court.
This C.R.C.P. Rule 59 Motion concerns the dismis­
sal of Plaintiff’s First Amended Complaint in 15CV
515 again seeking relief for the foreclosure and evic­
tion. In this action Plaintiff generally alleged viola­
tions of his due process rights under both the Federal
and State Constitutions, violations of Judicial Canons,
violation of federal law, including the Fair Debt Collec­
tion Practices Act. Section 15 U.S.C. 1692, violation of
the Colorado Fair Debt Collections Practices Act, sec­
tion 12-14-107, et seq. and fraud. See Complaint. Plain­
tiff filed his First Amended Complaint in the instant
matter on February 16,20161. On March 15,2016, Citi­
bank filed its Motion to Dismiss the First Amended
Complaint in its entirety. On March 22, 2016, co­
defendants Kelly Kilgore and Mark C. Willis filed their
Motion to Dismiss the First Amended Complaint in its
entirety.
1 The Amended Complaint was 40 pages in length and added
claims for slander of title, civil conspiracy, abuse of process, mali­
cious prosecution, extreme and outrageous conduct and emotional
distress.

App. 14
On April 26, 2017, the Court held a hearing on all
outstanding motions in this matter. On April 28, 2017,
the Court issued an Order regarding the pending mo­
tions. All motions except for the dispositive Motions to
Dismiss by Defendants were ruled on. The Court ad­
vised that the pending Motions to Dismiss would be
ruled on after consideration of the parties’ oral argu­
ments presented at the April 26, 2017 hearing. The
Court was also aware that the underlying 14CV20074
was wending its way through the appellate courts and
did not want to issue any orders in this companion case
until that litigation had been resolved. The petition for
certiorari was denied in that matter on November 17,
2017, but no party brought that to the Court’s atten­
tion until March of 2018.
Thus, on April 2, 2018, after consideration of the
motion to dismiss and the response thereto, evidence,
testimony, and argument obtained at the hearing, the
Court granted the Defendant’s Motion to Dismiss the
Plaintiff’s Amended Complaint. The Order dismissed
all of McDonald’s claims with prejudice under C.R.C.P.
12(b)(5) for failure to state a plausible claim for relief.
Dismissal Order at 2. The Court tried to make the rea­
sons for the dismissal transparent. It found that
McDonald’s First Amended Complaint failed to meet
the pleading standards required by the Colorado Rules
of Civil Procedure, specifically C.R.C.P. 8(a). The court
also found that McDonald failed to plead specific facts
to support his claims by “alleging generalities and cit­
ing to case law without providing factual support for
his allegations.” Id. The Court also found that each of

App. 15
McDonald’s claims as alleged in the amended com­
plaint failed to state a claim upon which relief can be
granted. Mr. McDonald seeks to have the Court review
its order pursuant to C.R.C.P. 59.
A. C.R.C.P. 59
C.R.C.P. 59 permits a party to move for post-trial
relief within 14 days of entry of judgment or such
greater time as the court may allow. C.R.C.P. 59. The
party may seek “(1) a new trial of all or part of the issues;
(2) judgment notwithstanding the verdict; (3) amend­
ment of findings or amendment of judgment.” Id. The
Rule also provides that “on motion for post-trial relief
in an action tried without a jury the court may, if a
ground exists, open the judgment if one has been en­
tered, take additional testimony, amend findings of fact
and conclusions of law, or make new findings and con­
clusions and direct entry of new judgment.” C.R.C.P.
59(f). The purpose of a motion for new trial is to give
the trial court and opportunity to correct alleged er­
rors. See Harriman u. Cabela’s Inc., 371 P.3d 758,761 62 (Colo. App. 2016) (citing Danielson u. Kerbs AG, Inc.,
646 P.2d 363, 367 (Colo. 1982); See also In re Marriage
of Jones, 668 P.2d 980, 981 (Colo. App. 1983)).
The Colorado Supreme Court has stated that:
A motion for new trial is not to be regarded as
routine or perfunctory matter. Its obvious pur­
pose is to direct the attention of the trial court
with at least some degree of specificity to that
which the losing litigant asserts to be error, all

App. 16
to the end that the trial court will be afforded
a last look, and an intelligent last look at the
controversy still before it.
Martin v. Opdyke Agency, Inc. 398 P.2d 971, 973 (Colo.
1965). Thus, it is incumbent upon the moving party to
point out to the Court what errors should be consid­
ered and addressed.
In the Rule 59 Motion, Mr. McDonald expresses
his general and vehement disagreement with the
Court’s order and generally alleges that his federal and
state rights have been violated. However, he does not
explain or state which of the findings of the court are
in error. He does not allege that the court erred or fac­
tually how it erred in finding “(1) that the Complaint
did not comply with the pleading standards required
by the Colorado Rules of Civil Procedure”; or that the
Court was wrong in finding or had no basis in finding
“(2) that the Complaint failed to plead sufficient facts
to support the claims”; or even that the Court was in
error when it found the Complaint “(3) failed to plead
claims upon which relief could be granted.” See Order
of Dismissal. Thus, the Court finds no basis in law or
fact to reconsider the motion under C.R.C.P. 59 and
DENIES the motion and reaffirms its dismissal.
SO ORDERED
Entered this 19 day of June.
[SEAL]

/s/ Elizabeth A. Weishaupl
District Court Judge

App. 17
DISTRICT COURT,
DATE FILED: April 2,2018
1:02 PM
ARAPAHOE COUNTY,
COLORADO
7325 South Potomac
Centennial, Colorado 80112
Plaintiffs):
Reed Kirk McDonald
v.
Defendant(s):
Citibank Na et al
A COURT USE ONLY A
Case Number: 2015CV515
Div.: 402
Order re: Defendants’ Motion to
Dismiss Plaintiff’s Amended Complaint
THIS MATTER comes before the Court on Defend­
ants Kelly Kilgore and Mark C. Wallis (“Defendants”)’
Motion to Dismiss Plaintiff Reed Kirk McDonald’s
(“Plaintiff”) First Amended Complaint pursuant to
Rule 12(b)(5) of the Colorado Rules of Civil Procedure.
Defendants join in and adopt all arguments and re­
statements of facts advanced in co-defendant Citibank’s
Motion to Dismiss the First Amended Complaint. The
Court rules as follows:

App. 18
LEGAL STANDARD
The purpose of a motion to dismiss for failure to
state a claim is to test the formal sufficiency of the com­
plaint. Dorman v. Petrol Aspen, Inc., 914 P.2d 909, 911
(Colo. 1996). To survive a Rule 12(b)(5) motion, the
complaint must plead sufficient facts, taken as true
and in the light most favorable to the plaintiff, to state
a claim for relief that is plausible on its face. Warne v.
Hall, 373 P.3d 588 (Colo. 2016) (embracing the plausi­
bility standard in Bell Atlantic Corp. v. Twombly, 550 U.S.
544 (2007) and Ashcroft v. Iqbal, 556 U.S. 662 (2009)).
When analyzing a motion to dismiss, the court
may consider only the facts alleged in the pleadings,
documents attached as exhibits or incorporated by ref­
erence in the pleadings, and matters of which the court
may take judicial notice. Walker v. Van Laningham,
148 P.3d 391, 397 (Colo. App. 2006). A motion to dismiss
is properly granted when the plaintiffs factual allega­
tions cannot support a claim as a matter of law. BRW
Inc. v. Dufficy & Sons, Inc., 99 P.3d 66, 71 (Colo. 2004).
DISCUSSION
As an initial matter, for the purposes of the Motion
to Dismiss, the Court must take all allegations in the
Complaint in the light most favorable to the Plaintiff.
Defendants argue that the claims insufficiently iden­
tify the contracts at issue in this case. Under C.R.C.P.
8(a), a prayer for relief must contain a short and plain
statement of the claims showing that the pleader is

App. 19
entitled to relief and a demand for judgment for the
relied which the pleader claims to be entitled.
Plaintiff’s First Amended Complaint does not con­
form to the pleading standards required by the Colo­
rado Rules of Civil Procedure and Warm. 373 P.3d 588
(Colo. 2016). Plaintiff also alleges several constitutional
claims, specifically seeking relief under the Federal
Fair Debt and Collection Practices Act and pursuant to
42 U.S.C. 1983 for violations to his constitutional right
to due process. The Court finds Plaintiff failed to plead
sufficient facts to support his claims by alleging gener­
alities and citing to case law without provided factual
support for his allegations. Additionally, under all six­
teen some odd claims, Plaintiff fails to state a claim
upon which relief can be granted. Thus, the Court must
dismiss the First Amended Complaint with Prejudice.
CONCLUSION
This Matter is dismissed with prejudice. Plain­
tiff’s First Amended Complaint is dismissed for failing
to plead sufficient facts upon which this Court could
grant relief.
Dated: April 2, 2018.
BY THE COURT:
/s/ Elizabeth A. Weishaupl
Elizabeth A. Weishaupl
District Court Judge

App. 20
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:
December 23, 2019

Certiorari to the Court
of Appeals, 2018CA1507
District Court, Arapahoe
County, 2015CV515
Petitioner:
Reed Kirk McDonald
v.

Supreme Court Case No:
2019SC754

Respondents:
CitiBank N. A., Mark C.
Willis, and Kelly Kilgore.

ORDER OF COURT
Upon consideration of the Petition for Writ of Cer­
tiorari to the Colorado Court of Appeals and after re­
view of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Cer­
tiorari shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, DECEMBER 23,2019.

App. 21
Reception #:D2045242, 04/26/2012 at 02:11:57 PM,
1 OF 1, Rec Fee $11.00 Arapahoe County CO Nancy A.
Doty, Clerk & Recorder
WHEN RECORDED RETURN TO:
JPMorgan Chase Bank, NA
C/O NTC 2100 Alt. 19 North
Palm Harbor, FL 34683
Loan #: 0015231095
[BAR CODE]
CORPORATE ASSIGNMENT
OF DEED OF TRUST
- - Contact JPMORGAN CHASE BANK, N.A. for this
Instrument 780 Kansas Lane, Suite A, Monroe, LA
71203, telephone # (866) 756-8747, which is responsi­
ble for receiving payments.
FOR GOOD AND VALUABLE CONSIDERATION, the
sufficiency of which is hereby acknowledged, the un­
dersigned, JPMORGAN CHASE BANK, NATIONAL
ASSOCIATION SUCCESSOR BY MERGER TO
CHASE HOME FINANCE LLC SUCCESSOR BY
MERGER TO CHASE MANHATTAN MORTGAGE
CORPORATION, WHOSE ADDRESS IS 700 Kansas
Lane, MC 8000, MONROE, LA, 71203, (ASSIGNOR),
by these presents does convey, grant, sell, assign, trans­
fer and set over the described deed of trust described
with all interest secured thereby, all liens, and any
rights due or to become due thereon to CITIBANK,
NA, AS TRUSTEE FOR CHASE FUNDING MORT­
GAGE LOAN ASSET-BACKED CERTIFICATES, SERIES

App. 22
2002-4, WHOSE ADDRESS IS 700 KANSAS LANE,
MC 8000, MONROE, LA 71203 (866)756-8747, ITS
SUCCESSORS OR ASSIGNS, (ASSIGNEE).
Said Deed made by REED KIRK MCDONALD to
CHASE MANHATTAN MORTGAGE CORP. dated
09/12/2002, and recorded in Book n/a, Page n/a, and or
Instrument/Film # B2178295 in the office of the Re­
corder of ARAPAHOE County, Colorado.
Date: 04/06/2012 (MM/DD/YYYY)
JPMORGAN CHASE BANK, NATIONAL ASSOCIA­
TION SUCCESSOR BY MERGER TO CHASE HOME
FINANCE LLC SUCCESSOR BY MERGER TO
CHASE MANHATTAN MORTGAGE CORPORATION
By /s/ Pearl M. Burch
Pearl M. Burch
VICE PRESIDENT
STATE OF FLORIDA COUNTY OF PINELLAS
The foregoing instrument was acknowledged before
me on 04 / 06/2012 (MM/DD/YYYY), by Pearl M. Burch
as VICE PRESIDENT for JPMORGAN CHASE
BANK, NATIONAL ASSOCIATION SUCCESSOR BY
MERGER TO CHASE HOME FINANCE LLC SUC­
CESSOR BY MERGER TO CHASE MANHATTAN,
MORTGAGE CORPORATION, who, as such VICE
PRESIDENT being authorized to do so, executed the

App. 23
foregoing instrument for the purposes therein con­
tained. He/she/they is (are) personally known to me.
/s/

MA
Miranda Avila
Notary Public State of FLORIDA
Commission expires:
08/22/2014

Miranda Avila
[SEAL]
Notary Public
State of Florida
My Commission
#EE 019063
Expires August 22, 2014

Prepared By: E.Lance/NTC, 2100 Alt. 19 North,
Palm Harbor, FL 34683 (800)346-9152
JPCAS 16066939 -@ CHASE CJ3689165
No FORMS \FRMC01
[BAR CODE]
*16066939*

[SEAL] CERTIFIED TO BE FULL, TRUE, AND COR­
RECT COPY OF THE RECORDED DOCU­
MENT IN MY CUSTODY, DATE JUN 05
2014 MATT CRANE, ARAPAHOE COUNTY
CLERK & RECORDER
BY: [Illegible]__________________________

App. 24
[SEAL]
17th Judicial District
IMPORTANT CONSIDERATIONS BEFORE
FILING A RESPONSE TO A RULE 120 ACTION
There are only two defenses to a Rule 120 action:
1)

The money is not due, or

2)

the action is barred under the Service Mem­
ber Civil Relief Act

Timeline for filing a Response:
The Response must be filed with the court and served
on the Petitioner at least five days prior to the date set
for the Rule 120 hearing.
Response fee: $158.00
If you attempt to file a Response less than five days
prior to the hearing, the clerks are not permitted to ac­
cept your Response.
PLEASE READ THE ATTACHED PAGES FOR
MORE SPECIFIC INFORMATION.
PLEASE NOTE: By law, the Court is not permit­
ted to give you legal advice. This handout is
intended to provide clarification and guidance
to pro se litigants. If you require additional
information, please contact an attorney.
updated 5/10

zz~rzn

Wtb-Unls Pregram Unla Go-To t/ridprV.'a.nng Help

r^r

Colorado State Judicial

- •fhfcilpt'IntwmaHiofl

- -

i ....... ■.

C«©Numb»f.20i4‘CV*20D074
fttcttpi Numbcn201<«CV*20D074‘66Dl

Ttonsodibf) Ootc 04/18/2014
Peytnini Typo; CASH

*

• *

• * -- . ) •

mmm

>

ti

[MCDONALD,‘REB) KWK

i

i=j.

f

tfAfK.irtmn

OTtW y
V

Di^irnption

** ri..?

fl

"7,000X0

El

.V

ArriAiir.i

\ortm Rtgittqj ^

to

cn

•i'
,‘S

\u.-..r

>•:: • <

* V.-V' r. i>

n i

a'

Icfet
”

$*,000X0 *, ■■ /

*

7
. -V
“5

Transaction!
4/18/2014 11:30 AM JEM
TL180326
'imemir DUPLICATE RECEIPT <*«««*•*«
District Court. Arapahoe Count**
Arapahoe Counts) Justice Center
7325 S Potomac St
Centennial. CO 80112
303-649-6355
Pasior: MCDONALD, REED KIRK
Case I: 2014CV-200074
CHI BANK NR

i

VS.

MCUOHflLD. REED KIRK
RCP t: 2014CV-200074-0001
fftftaiiiiietaiiTtiiiiijcaffirtttBceittiitKicf

Descript ion

Amount

Oilier Replstr*

7.000.00

«;»«■ ntctstti •**«<•« ■tiecettiitltclEtia a Bc*e m

Receipt Total..
Amount tendered
Chanse Due......
Payment Tape...
Account Receivable Due.,

*7.000.00 {
*7.000.00

*,00
CASH
* .00

iaite iterKtsiittcriiiUtiEit

CAsh bond posted per mine dated April 17, 20
14

COMBINED COURT
STATE OF COLORADO \
as
ARARAHOE COUNTY /
CERTtFIH) to baa iul. bin and cor­
rect copy of the original Kwnycuttody.

■s

APR -1 2019
DATED

App. 26
District Court, Arapahoe
County, Colorado

DATE FILED:
[January 5,2017 11:27 AM]

Court Address: Arapahoe
County Justice Center
7325 S. Potomac St.
Centennial, CO 80112
Plaintiff:
CITIBANK, N.A., AS
TRUSTEE FOR CHASE
FUNDING MORTGAGE
LOAN ASSET-BACKED
CERTIFICATES,
SERIES 2002-4
v.

▲ COURT USE ONLY A

Defendant:
REED KIRK
MCDONALD
Attorneys for Plaintiff

Case Number: 2014cv
200074

Mark C. Willis, #31025
Kelly Kilgore, #38097
KUTAK ROCK LLP
1801 California Street,
Suite 3000
Denver, CO 80202-2626
Telephone: (303) 297-2400
Facsimile: (303) 292-7799
Email:
mark.willis@kutakrock.com Division: 15
kelly.kilgore@kutakrock.com

Courtroom:

PLAINTIFF’S REQUEST FOR REISSUANCE
OF WRIT OF RESTITUTION PURSUANT
TO C.R.S. § 13-40-115

App. 27
Plaintiff Citibank, N.A., as Trustee for Chase
Funding Mortgage Loan Asset-Backed Certificates, Se­
ries 2002-4 (“Citi”), by and through its undersigned
counsel, hereby submits the following Request for Re­
issuance of Writ of Restitution Pursuant to C.R.S. § 1340-115 and, in support thereof, states as follows:
1. On April 17, 2014, this Court entered judg­
ment in favor of Citi and against defendant Reed Kirk
McDonald (“McDonald”) for possession of the real
property commonly known as 6214 South Datura St.,
Littleton, Colorado 80120 (the “Property”) pursuant
C.R.S. § 13-40-115 (the “FED Judgment”), which pro­
vides in pertinent part, that: “Upon the trial of any ac­
tion under this article . . . and if the court finds that
the defendant has committed an unlawful detainer, the
court shall enter judgment for the plaintiff to have
restitution of the premises and shall issue a writ of
restitution,” (emphasis added).
4816-0427-3984.2

App. 28
ISSUED BY COURT
01/05/2017
/s/ S Kloek
Shana Kloek
Clerk of the Court
District Court, Arapahoe DATE FILED:
County, Colorado
[January 5, 2017 1:06 PM]
Court Address: Arapahoe CASE NUMBER:
2014CV200074
County Justice Center
7325 S. Potomac St.
Centennial, CO 80112
Plaintiff:
CITIBANK, N.A., AS
TRUSTEE FOR CHASE
FUNDING MORTGAGE
LOAN ASSET-BACKED
▲ COURT USE ONLY ▲
CERTIFICATES,
SERIES 2002-4
v.
Defendant:
REED KIRK
MCDONALD
Case Number: 2014cv
200074
Division: 15
WRIT OF RESTITUTION

Courtroom:

App. 29
To the People of the State of Colorado
To the Sheriff of Arapahoe County
Whereas, CITIBANK, N.A., AS TRUSTEE FOR
CHASE FUNDING MORTGAGE LOAN ASSETBACKED CERTIFICATES, SERIES 2002-4, Plain­
tiff, obtained a final judgment on April 25,2014 against
REED KIRK MCDONALD, Defendant, pursuant to
the Colorado Forcible Entry and Detainer statutes,
§13-40-101, et seq., C.R.S. ordering possession of the
premises located at:
Street Address: 6214 South Datura St.
City: Littleton County: Arapahoe______
You are hereby ordered to remove the Defendant and
his property from the premises and restore the Plain­
tiff to the possession of the premises stated above and
to make proper return according to law.
This Writ of Restitution shall remain in effect for 49
days after issuance and shall automatically expire
thereafter.
\

□ This Writ of Restitution requires the removal of a
mobile home from the premises pursuant to §38-12"208, C.R.S.
Date:

, 2017.
District Court Judge

4844-6682-4512.1

